 




                              Testimony of

                  The Honorable Todd J. Zinser 

                          Inspector General 


                     U.S. Department of Commerce


                         before a hearing of the

                    Committee on Appropriations 

    Subcommittee on Commerce, Justice, Science, and Related Agencies 

                           U.S. Senate 


    The Department of Commerce's Fiscal Year 2014 Budget Request


                             April 11, 2013




 
 


Chairwoman Mikulski, Ranking Member Shelby, and Members of the Subcommittee:

I appreciate the opportunity to testify today as you consider upcoming appropriations for the
Department of Commerce. The President’s fiscal year (FY) 2014 budget requests $11.7 billion
for the Department, including $3.1 billion for USPTO user-fee financing. The Department plays
a pivotal role in implementing the President’s initiatives for economic recovery and job
creation—and, like other federal agencies, faces significant challenges in the upcoming year.

Today I will briefly summarize several challenges facing the Department. These areas are
addressed in greater depth in our recent Top Management Challenges report, which we prepare
annually as required by the Reports Consolidation Act of 2000.1 Our Top Management
Challenges (TMC) report identifies what we consider, from our oversight perspective, to be the
most significant management and performance challenges facing the Department:

       Challenge 1. Stimulate economic growth in key industries, increase exports, and enhance
       stewardship of marine fisheries
       Challenge 2. Increase oversight of resources entrusted by the public and invest for long-
       term benefits
       Challenge 3. Strengthen security and investments in information technology
       Challenge 4. Implement framework for acquisition project management and improve
       contracts oversight
       Challenge 5. Reduce risks of cost overruns, schedule delays, and coverage gaps for the
       National Oceanic and Atmospheric Administration’s (NOAA’s) satellite programs

The challenges I will highlight today focus on the following areas:

       	 NOAA Satellites—reduce risks of cost overruns, schedule delays, and coverage gaps
          (challenge 5)
       	 2020 Census—implement design changes to contain life-cycle costs while maintaining
          enumeration quality (from challenge 2)
       	 U.S. Patent and Trademark Office—reduce the patent backlog, improve processing
          times, and effectively implement patent reform (from challenge 1)
       	 Departmental Operational Controls and Oversight—strengthen operational
          controls and oversight under constrained budgets (from challenges 1, 2, 3, and 4)




                                                            
1
    31 U.S.C.§ 3516(d).


                                                               2

 


I. NOAA Satellites—Reduce Risks of Cost Overruns, Schedule Delays, and Coverage
Gaps

Satellite programs remain the largest investment in the Department, comprising nearly 20
percent of the Department’s budget. The two most prominent programs, the Joint Polar
Satellite System (JPSS) and the Geostationary Operational Environmental Satellite-R series
(GOES-R), together accounted for one-third of NOAA’s FY 2013 budget request. Strong
program management and close oversight of these programs are needed to manage risks that, if
not mitigated, could lead to cost overruns, schedule delays, and coverage gaps for the critical
capabilities these programs will provide. Based on our work with these programs, we have
identified four areas for management attention:
       	 Communicating with stakeholders to define JPSS capabilities, schedule, and cost 

          baselines 

       	 Ensuring adequate leadership and governance structure over JPSS development
       	 Developing a plan to support NOAA weather forecasting capabilities during coverage
          gaps
       	 Reducing program risks associated with GOES-R development

Communicating with Stakeholders to Define JPSS Capabilities, Schedule, and Cost Baselines

In our September 2011 audit report,2 we recommended that NOAA develop a mechanism to
provide executive and legislative decision makers, on a recurring basis, with complete,
objective, and understandable information that illustrates the consequences of limiting satellite
observational capabilities. Recently, the Senate Committee on Appropriations expressed
frustration with NOAA’s “inability to control procurement costs or articulate reliable funding
profiles.”3 This resulted in the Senate Committee losing confidence in NOAA’s ability to
manage its portfolio of satellite acquisitions and the Committee considered transitioning these
acquisitions entirely to National Aeronautics and Space Administration (NASA).

NOAA’s JPSS program uses NASA as its acquisition agent, leveraging that agency’s
procurement and systems engineering expertise—an arrangement based on previous
partnerships between the two agencies. In its FY 2011 budget submission, NOAA reported that
the two-satellite JPSS program, running through 2024, would cost $11.9 billion. Requirements
changes and an extended life cycle through 2028 resulted in a December 2011 revised program
cost projection of $14.7 billion. In its FY 2013 budget submission, however, NOAA committed
to capping the cost of the program at $12.9 billion and submitted a nearly flat-line annual FYs
2013–17 budget estimate of approximately $900 million, plus the cost of climate sensors
previously budgeted under a different NOAA program. Although the program has since
constructed a cost estimate to support the $12.9 billion cost cap, its high-level requirements
                                                            
2
  U.S. Department of Commerce Office of Inspector General, September 30, 2011. Audit of the Joint Polar Satellite
System: Challenges Must Be Met to Minimize Gaps in Polar Environmental Satellite Data, OIG-11-034-A. Washington,
DC: Department of Commerce OIG.
3
  Senate Report 112-158 (discussing Committee rationale for transfer to NASA); Commerce, Justice, Science, and
Related Agencies Appropriations Act, 2013, S. 2323, 112th Cong. (2012).


                                                               3

 


were recently finalized in October 2012. Pending decisions on lower-level requirements,
acquisition strategies, and system design—particularly for the ground system and “free-flyer”
satellites—could have ramifications for launch schedules and cost:
    	 The ground segment project recently completed its requirements review 5 months later
       than planned, in August 2012; it was originally scheduled to precede the program-level
       review that occurred in May 2012. Program officials have told us that there is a need to
       move to a more open, adaptable, standardized architecture that will allow the program
       to save costs by interfacing with international and other partners for mission data.
    	 There is a significant amount of uncertainty in requirements for free-flyer satellites,
       which will host search-and-rescue and data collection instruments, separate from the
       program’s primary satellites. For the free flyers, information security requirements had
       to be analyzed and ground support options determined. This uncertainty in
       requirements translates to uncertainty in the program’s life-cycle cost estimate.

During FY 2012, NOAA has made progress in prioritizing high-level JPSS requirements to
support its commitment to capping the life-cycle costs at $12.9 billion. While this approach
shows serious management commitment, fitting requirements into a previously authorized
budget increases the risk that requirements will be dropped or launches delayed in order to
remain within the budget. NOAA needs to revisit the life-cycle cost estimates after finalizing
JPSS requirements and work with the Department and Congressional representatives in
adjusting its budget estimates.

Ensuring Adequate Leadership and Governance Structure over JPSS Development

More progress defining JPSS capabilities, schedule, and cost may have been possible if not for
delays defining the program’s management control plan, which identifies governance structure
and key program and NOAA positions. NOAA and NASA finally agreed to a management
control plan for JPSS in February 2012, nearly 2 years after the program was started. The
agencies are currently revising the management control plan to ensure the NOAA JPSS
Director has the necessary authority and responsibility to direct all elements of the program
and to ensure that systems engineering is integrated under a single program chief systems
engineer.

Further, NOAA and its JPSS program have had key staff in acting, rather than permanently filled,
capacities for extended periods of time (see table 1, below). Only the Under Secretary of
Commerce for Oceans and Atmosphere and the Assistant Administrator for National
Environmental Satellite, Data, and Information Service (NESDIS), positions have been
permanently filled since the program’s inception. The Under Secretary recently returned to
academia, resulting in a new discontinuity in senior management oversight of the program.




                                                4

 


                          Table 1. NOAA JPSS Program Authorities
                                                  Status at
     Position                                   Program Start             Current Status
                                               (February 2010)
     Under Secretary of Commerce for
     Oceans and Atmosphere/ NOAA                    Filled            Acting (February 2013)
     Administrator
     Assistant Secretary for Environmental
     Observation and Prediction/Deputy             Vacant                 Filled (May 2011)
     Administrator
                                                                    Acting (January–June 2012);
     Deputy Under Secretary for Operations          Filled         Filled (July 2012–January 2013);
                                                                         Filled (new appointee,
                                                                              January 2013)
     Assistant Administrator, NESDIS                Filled                        Filled
     NESDIS Deputy Assistant Administrator                       Acting (February 2010–May 2012);
                                                    Filled
     for Systems                                                        Currently vacant

     JPSS Director                                 Acting             Filled (September 2011)

    Source: OIG analysis of NOAA information

Qualified officials, who can make timely decisions and take management action, are essential to
the success of JPSS development. For example, NOAA’s Deputy Under Secretary for
Operations is deemed the final authority for the program’s high-level requirements, schedule,
and budget submissions. The former official retired in January 2012 and was not permanently
replaced until July 2012. The interim period included the FY 2013 President’s Budget
submission and other decisions on high-level requirements. NOAA had additional turnover at
this position after a little more than 6 months. The NESDIS Deputy Assistant Administrator for
Systems (DAAS) position, which has served as NOAA’s single source of programmatic
direction and guidance to NASA for NOAA programs, has been vacant since May 2012; NOAA
does not expect to fill the position until summer 2013. Previously, this DAAS position was
staffed in an acting capacity. Detailed employees, in acting capacities, occupy several other key
positions within NESDIS and the program. NOAA needs to fill open positions overseeing JPSS
development and govern the program according to an effective management plan.

Developing a Plan to Support NOAA Weather Forecasting Capabilities During Coverage Gaps

Over the course of the program to date, we have analyzed Suomi National Polar-orbiting
Partnership (Suomi NPP, a recently launched, risk-reduction satellite that is flying the first
versions of JPSS sensors) and JPSS schedules to assess expected gaps in weather forecast data.
Currently, we project a 10–16-month gap between Suomi NPP’s end of design life and when
JPSS-1 data become available for operational use (see figure 1, below). NOAA’s medium-range
weather forecasting (3–7 days) could be significantly degraded during the period of time JPSS
data are unavailable.




                                                   5

 


    Figure 1. Potential Continuity Gaps for Polar-Satellite Operational Forecast Data




      Source: OIG analysis of JPSS program data

In our September 2011 report, we reported on activities within NOAA to use other sources of
data to mitigate gaps and recommended NOAA coordinate efforts from across its line offices
to minimize the degradation of weather and climate forecasting. In response, NOAA indicated
that it was looking at both foreign and commercial sources of data. More recently, NESDIS
developed a gap mitigation plan to minimize JPSS-1 schedule risks and possibly extend Suomi
NPP’s lifetime. The plan includes options and strategies whose implementation is contingent
upon further prioritization and funding decisions. NOAA has also begun an analysis of
alternative sources of data and other ideas for minimizing the degradation of its weather
forecasting capabilities in the event a gap in polar satellite data occurs. In the Disaster Relief
Appropriations Act of 2013, Congress provided NOAA $111 million for a weather satellite
data mitigation gap reserve fund; NOAA was to submit its spending plan to the House and
Senate Appropriations Committees in March 2013.

The risk of a near-term gap between NOAA-19 (NOAA’s primary operational polar-orbiting
satellite) and Suomi NPP has been largely mitigated and the program formally transferred
operations to NOAA in February 2013.




                                                  6

 


Reducing Program Risks Associated with GOES-R Development

GOES-R is also a NOAA/NASA partnership; however, unlike JPSS, NOAA is managing the
acquisition and development of the GOES-R ground system while NASA is directing the flight
segment (spacecraft, instruments, launch vehicle and services). The GOES-R series of satellites
will provide uninterrupted short-range severe weather warning and “now-casting” capabilities
through 2036. With four satellites (the GOES-R, -S, -T, and -U), the program is estimated to
cost $10.9 billion over the course of its life cycle.

Previous efforts to reduce risks and control costs resulted in reductions in the scope of the
GOES-R program and deferred the delivery of some capabilities (see table 2, below). An
instrument4 that would more accurately measure moisture and temperature at different heights
in the atmosphere was removed in 2006 because it was technically complex. Two capabilities
added in July 2010 were subsequently deferred indefinitely in an effort to control costs:
       	 Improvements in the frequency and speed at which data products are delivered to
          users; the program has returned to meeting the original frequency and speed
          requirements
       	 Plans to add 31 weather prediction and climate monitoring data products to the existing
          34 baseline products

                                    Table 2. GOES-R Capabilities Removed or Deferred
    Program Content/Capability                                 Date
                                                            Current Status               Rationale
                                                           Similar information
                                                                                  To reduce program risk
                                                            will be produced
    Hyperspectral Environmental Suite         August 2006                         (the instrument included
                                                             using data from
                                                                                    unproven technology)
                                                           another instrument
    Improvements in the frequency and                      Returned to original
    speed at which data products are        September 2011      (baseline)      Necessary to meet cost limits
    delivered to users                                        requirements
    An additional 31 data products used for                   Products are
    weather predication and climate         September 2011   deferred for an    Necessary to meet cost limits
    modeling                                               undetermined time
Source: OIG analysis of NOAA information

The GOES-R program recently held a key technical milestone review in August 2012.
Subsequently, the program downgraded, from green to yellow, its assessment of schedule and
technical development because of various issues with the spacecraft and instruments and the
need to aggressively manage dependencies with the ground project’s development. The ground
segment’s schedule has become more incremental—which will increase schedule flexibility, as
well as better align the delivery schedule for GOES-R spacecraft, instruments, and
documentation. Despite progress made, there is less than a 50 percent chance the GOES-R
satellite will be launched on schedule, in October 2015, based on the program’s own models
used to assess GOES-R development. Also, the program has identified increased risk in flight

                                                            
4
 The Hyperspectral Environmental Suite measures temperature and moisture in the atmosphere with improved
accuracy.


                                                                      7

 


segment development that could hinder its ability to launch on schedule. NOAA must
implement solid program management and system engineering principles to control costs, keep
schedules on track, and maintain required technical performance.

NOAA is currently assessing impacts to the GOES-R schedule due to sequestration and
rescission of funds in the recently enacted appropriations law. The program’s standing review
board also warned at an August 2012 technical review that should the program’s request in the
President’s FY 2013 budget submission (an increase of nearly $200 million, or 30 percent, from
FY 2012) not be realized, a launch delay is nearly certain, which could significantly limit NOAA’s
capability of providing short-range severe weather warning. NOAA’s policy for its geostationary
satellites is to have three satellites in orbit—two operational satellites with overlapping
coverage and one spare for backup (see figure 2, below). As we reported last year, NOAA may
not be able to meet its policy of having an on-orbit spare even without a GOES-R launch delay,
because of retirement of current GOES series satellites. A launch delay beyond October 2015
increases the risk that just one geostationary imager will be on orbit, a scenario in which
NOAA’s capability to visualize and track severe weather events would be severely limited.

               Figure 2. Continuity of Geostationary Operational Satellites




Source: OIG, adapted from NOAA geostationary satellite schedules




                                                      8

 


II. 2020 Census—Implement Design Changes to Contain Life-Cycle Costs While
Maintaining Enumeration Quality

Because of the long planning cycles for the decennial census, one of the biggest challenges the
Census Bureau faces is maintaining leadership with a consistent vision. Currently, the Bureau is
approaching the 7-month mark without a permanent director, increasing the likelihood that it
might fall back on old ways and institutional habits. The Bureau has vowed to contain the costs
of the 2020 decennial census to an amount close the average cost per home of the 2010
decennial census— a life-cycle cost of no more than $18 billion. To achieve cost savings, the
Bureau is exploring new and innovative design alternatives based on evidence from its research
and testing operations. However, the Bureau may be seeing signs of delays due to budget
reductions and schedule slippage in its 2010 decennial census evaluation program and the 2020
decennial research and testing program. Schedule delays could impede the Bureau’s preliminary
2020 decennial design decision scheduled for September 2014. We have identified the following
issues requiring senior management attention.

Maintaining Leadership Continuity and Departmental Oversight

Leadership continuity is essential to maintain momentum as planning progresses for the 2020
decennial census. The Presidential Appointment Efficiency and Streamlining Act of 2011 (Public
Law 112–166), signed into law on August 10, 2012, specifies a fixed 5-year term for the Census
Bureau director, which represents progress toward ensuring the leadership continuity required
to direct the 2020 decennial life cycle. While the current leadership has extensive knowledge
and experience, the lack of a confirmed director adds risk to the Bureau’s management of
critical issues (e.g., budget, operational design, and questionnaire content). Absent stable,
committed leadership, any organization tends to revert to its embedded culture. Reverting to
historical practices and limited design changes experienced in recent decennials will result in
unsupportable cost growth for the next decennial. To coordinate ongoing activities leading to a
cost-effective FY 2014 design decision, the appointment of a new director must be a priority. 

Departmental oversight also should play a key role: early in the decennial census development
process, oversight can reveal whether the Census Bureau has considered all reasonable project
alternatives or whether it is assuming too much risk. In this way, the Department can work
with the Bureau to address problems before unnecessary costs accumulate. For example, one
difference this decade is the Department’s early attention to decennial planning efforts.
Recently, the Commerce Information Technology Review Board examined decennial IT
planning efforts and requested additional information from the Bureau. It is critical that
Departmental management continues close oversight to help ensure decennial cost
containment and quality.

Refining the American Community Survey and Multiple Response Options 

The American Community Survey (ACS) infrastructure allows for the creation and testing of
enterprise-wide solutions to obstacles that the Census Bureau faces in all of its survey and
decennial operations. In our final 2010 Census report to Congress,5 we suggested that the
                                                            
5
    DOC OIG, June 27, 2011. Census 2010: Final Report to Congress, OIG-11-030-I. Washington, DC: DOC OIG.


                                                               9

 


Bureau use the ACS to explore areas such as questionnaire content and design, multiple
response options (such as the Internet), use of administrative records, and targeted field data
collection procedures and methodologies. The Bureau’s preliminary 2020 decennial cost
estimates were based on the assumption that the ACS program would continue. With
Congress debating the elimination of funding for this survey, management needs to factor into
2020 decennial planning efforts the significant uncertainty this would create.

In January of this year, the Census Bureau implemented an ACS Internet response option.
Although the survey’s response rate is about the same as it was a year ago, the Bureau
collected more than 50 percent of the initial responses via the Internet, versus mail or
telephone. Early 2020 decennial research and testing operations have not used the ACS,
although there are plans to integrate testing mid-decade. The Bureau should seek opportunities
to use the ACS in decennial operations as testing progresses to the development of production
systems. Using this approach, the Bureau can minimize its reliance on creating single-use
systems that must operate flawlessly in a decennial production environment. Instead, it could
build systems over many developmental cycles (e.g., the ACS) during the decade.

Facilitating the Ability to Use Administrative Records

Currently, one of the focal points of 2020 decennial census research and testing agenda is using
administrative records to improve the address list and reduce the number of visits to housing
units that do not return the questionnaire. The Census Bureau’s use of these records could
potentially save billions of dollars over the life cycle of the next decennial. However, obtaining
access to these records can be difficult because relevant statutes governing other federal
agencies do not compel them to provide their records to the Bureau. In addition, as we
recently reported,6 although tribal, state, county, and local governments share address
information with the Bureau, Title 13 forbids the Bureau from reciprocating with those
partners and federal agencies—with a few, very narrow, exceptions, such as the once-a-decade
address-updating known as the Local Update of Census Addresses program. According to the
Bureau, it is trying to identify opportunities that will provide detailed feedback to local
governments throughout the decade for address list improvements. However, to facilitate a
wide-ranging use of administrative records—key to containing 2020 decennial costs—
management needs to seek Congressional guidance.

Completing 2020 Decennial Census Research and Testing

During FYs 2012–14, key Census Bureau research and testing occurs to support early design
decision-making in FY 2014. As a result of a reduction in its budget request for FY 2012, the
Bureau canceled 20 of 109 studies to measure its performance in the 2010 decennial census,
and four evaluations remain outstanding. We are currently reviewing the implementation status
of the Bureau’s 2020 decennial research and testing program, including the extent of
implementation, time frames for completion, milestones, and deliverables. We are concerned
about the Bureau’s ability to deliver the required results to make an informed preliminary
design decision by September 2014. If this necessary research is not completed on time the
                                                            
6
DOC OIG, May 10, 2012. High-Quality Maps and Accurate Addresses Are Needed to Achieve Census 2020 Cost-Saving
Goals, OIG-12-024-I. Washington, DC: DOC OIG.


                                                               10

 


Bureau may determine, as it has in the past, that the risks are too high to implement significant
design changes—and revert to a familiar mailout–mailback, pencil-and-paper questionnaire
without major cost-saving improvements. The Department, OIG, the Government
Accountability Office, and Congress should pay particular attention to the Bureau’s progress
over the next year. Decisions made during the next two years will set the course for how well
the 2020 decennial count is performed and how much it will ultimately cost.

III. U.S. Patent and Trademark Office—Reduce the Patent Backlog, Improve
Processing Times, and Effectively Implement Patent Reform

The U.S. Patent and Trademark Office (USPTO) fosters innovation and protects inventors’
intellectual property rights by registering trademarks and granting patents, which support
$5 trillion of the U.S. economy. Long waits for application decisions could adversely affect
innovation, economic development, and job growth—inhibiting, for example, U.S. companies
from exporting until they procure the appropriate patents for their products. Further
challenges to economic growth arise as USPTO meets the challenges of implementing new
legislation and the requirements of its general patent processing operations.

Addressing Backlogs

Over the past decade, the patent backlog has almost doubled, and the completion of patent
reviews takes almost 3 years. Initially, the Under Secretary of Commerce for Intellectual
Property set forth the goals of reducing the backlog of applications awaiting examiner action to
a 10-month inventory (approximately 329,500 applications as of March 20127) through
decreasing the total processing time for patent applications to 10 months for the first office
action by FY 2014 and 20 months total by FY 2015. (See figure 3, below, for pendency rates
over the last 3 fiscal years of patent applications, appeals, and requests for continued
examination, or RCEs.) USPTO later postponed these target dates to FYs 2015 and FY 2016,
then to FYs 2016 and FY 2017 respectively.8 To reduce the long waits for patent application
decisions, it is imperative that USPTO increase its efforts to address these challenges.

USPTO also has the challenge of reducing a second backlog: ex parte9 appeals for rejected
patent applications. As the number of patent examiners has grown, the number of new ex parte
appeals has grown significantly. Although it is difficult to estimate the exact increase in the
number of new appeals before FY 2010 because of inaccuracies in the appeal data, new ex parte
appeals have averaged nearly 12,800 annually between FY 2010 and FY 2012. The time it takes
an appellant to receive a decision on an ex parte appeal has doubled in the past 2 years.

                                                            
7
  The exact number of applications that would comprise a 10-month inventory will vary based on the size of the
patent examiner corps.

8
  Sources for USPTO target dates for decreasing patent application processing time: USPTO FYs 2010–2015

strategic plan (FYs 2014 and 2015), FY 2013 President’s budget request (FYs 2015 and 2016), and the 

Department’s response to OIG’s October 2012 draft TMC report (FYs 2016 and 2017). 

9
  USPTO uses a Patent Trial and Appeal Board (PTAB) to help ensure that inventors have the opportunity to 

protest patent examiner decisions. Patent applicants may submit an ex parte appeal to the Board of Patent Appeals 

and Interferences (USPTO’s administrative law body) after any of their claims have been rejected twice by patent

examiners. 



                                                               11

 


                              Figure 3. Patent Backlogs and their Associated Pendency




Source: OIG analysis of USPTO data 

Note: PTAB measures for January 2013 or end of first quarter 2013 are not available. 


Although USPTO hired additional judges in FY 2012 and enhanced their performance
benchmarks, this backlog requires continued management attention.10

USPTO has made reducing its backlog of unexamined patent applications and patent appeals key
performance goals in its 2010–15 strategic plan. It has initiated efforts to reduce both
backlogs—which, as of January 2013, stood at 597,579 and 26,474, respectively:

       	 First, USPTO began a program called Clearing the Oldest Patent Applications (COPA)
          in February 2011 to reduce patent pendency by eliminating the backlog of all
          unexamined patent applications filed on or before June 7, 2009. This program began
          with 233,780 unexamined applications and, as of February 2013, it only had 193—at
          which point USPTO ended the COPA program. USPTO added more than 1,700 total
          examiners in FYs 2011 and 2012 to help reduce its patent application backlog. In FY
          2010, USPTO began with a backlog of more than 700,000 unexamined applications.


                                                            
10
 DOC OIG, August 2012. USPTO’s Other Backlog: Past Problems and Risks Ahead for the Board of Patent Appeals,
OIG-12-032-A. Washington, DC: Department DOC OIG.


                                                               12

 


              They have made significant progress by reducing that backlog to 597,579 unexamined
              applications in January 2013.

       	 Second, the Patent Trial and Appeal Board (PTAB) has increased its staff of
          administrative patent judges from 100 in FY 2011 to 152 in FY 2012 and anticipates
          having 218 by the end of FY 2013 to help reduce its current backlog of 26,474 ex parte
          appeals.11 My office reviewed PTAB’s backlog and operations and issued an audit report
          on August 10, 2012, indicating that PTAB’s staffing did not increase as the number of
          patent examiners increased. As a result, PTAB’s backlog has significantly grown over the
          last 2 years. Our report made recommendations to improve PTAB operations.

USPTO faces a third backlog of requests for continued examination (RCEs). The American
Inventors Protection Act of 1999 allowed applicants to request continued examination of a
patent application for a fee after USPTO had provided its final decision. Over the last 2 years,
the annual RCE backlog has more than doubled: from more than 48,000 in October 2010 to
more than 109,000 in January 2013.
Although a new examiner count system implemented in February 2010 aimed to reduce the
number of RCEs, new filings have remained fairly steady at around 155,000 per year over the
last 3 years. As a result, on December 6, 2012, USPTO requested comments through the
Federal Register to solicit public feedback on the factors that cause applicants to file RCEs.
Although the comment period through the Federal Register notice closed on February 4, 2013,
USPTO continues to accept online comments through its website. Additionally, USPTO is
providing its examiners, through the end of FY 2013, incentives to reduce its backlog of RCEs.

Implementing Patent Fees and AIA Provisions

In addition, USPTO faces new administrative and operational challenges in implementing the
Leahy–Smith America Invents Act (AIA; Pub. L. No. 112-29). This September 2011 law contains
many fundamental changes to patent laws and fees, as well as USPTO practices, such as moving
the United States to a “first inventor-to-file” system from a “first-to-invent” system. These
significant changes required USPTO to issue new regulations. USPTO has successfully met both
its September 2012 and March 2013 deadlines to issue new rules required by the AIA. These
fundamental changes required significant planning, outreach, and communication with
stakeholders.

AIA allowed the USPTO Director to set or adjust any patent or trademark fee to cover the
aggregate estimated USPTO costs for patent and trademark processing, services, and materials
(including administrative costs). USPTO issued its final rule on setting and adjusting patent fees
on January 18, 2013, and implemented those fees on March 19, 2013. USPTO anticipates its
new fees will provide a sufficient amount of aggregate revenue to cover its aggregate costs of
operation, implement a sustainable funding model, reduce the current patent backlog, decrease
patent application pendency, improve patent quality, and upgrade the office’s IT capability.
However, USPTO continues to face challenges in effectively developing and implementing

                                                            
11
   Before September 16, 2012, the Patent Trial and Appeal Board was known as the Board of Patent Appeals and
Interferences.  


                                                               13

 


technology solutions to support AIA requirements and its general patent processing operations.
My office is conducting an audit on the agency’s efforts to implement the provisions of this
legislation and anticipates issuing a final report in late FY 2013.

AIA also contains 37 provisions for implementation within 4 years. As of February 19, 2013, we
determined that 26 of 37 provisions (70 percent) had been implemented. Of the remaining 10
provisions, some reports are overdue while others have not yet reached their deadlines. Table
3 below summarizes the status of the 37 provisions:

                 Table 3. Status of AIA Provisions, as of February 19, 2013
          Deliverable            Implemented     Overdue      Not Yet Due          Total
     Rules                               20           0              3               23
     Reports                             2            3              4                9
     Programs                            4            0              0                4
     Requirement                         0            0              1                1
                   TOTAL                 26           3              8               37
    Source: OIG analysis of USPTO data

IV. Departmental Operational Controls and Oversight—Strengthen Operational
Controls and Oversight Under Constrained Budgets

Since FY 1999, the Department has received unqualified audit opinions on its financial
statements. While these results have been successful from a financial reporting perspective, it is
not an adequate benchmark for internal controls and management oversight of day-to-day
operations, especially in today’s constrained budget environment. As emphasized in our most
recent TMC, there is a greater risk that management will take shortcuts, loosen internal
controls, and deemphasize oversight in order to devote resources to other requirements.

While management has increased Departmental-level oversight in recent years, such as
reviewing high-risk IT investments and reducing use of high-risk contracts, more needs to be
done. Recent concerns over conference spending and unauthorized reprogramming of funds
have highlighted the importance of strong internal controls and the continued need for effective
oversight.

Meeting Funds-Control Challenges

Budgetary mismanagement. In June 2012, the Appropriations Subcommittee approved the
Department’s $35.6 million reprogramming request to support NOAA National Weather
Service (NWS) operations. An internal inquiry report prepared by the Department highlighted
mismanagement of budgetary resources throughout NWS, as well as specific instances where
accounting records were manipulated. This highlights the need for increased oversight and
transparency.




                                                14

 


To its credit, the Department has issued directives requiring immediate and across-the-board
corrective actions and expanded management’s review of internal controls (per OMB Circular
A-12312) in response to this incident. However, the 6-month-long investigation of this incident
and subsequent development and implementation of corrective actions have diverted
management away from other critical functions. Departmental management needs to instill an
accountability culture with increased transparency, readily available support, and independent
validation. We are currently conducting a review of the Department’s and NOAA’s progress
on its actions in response to the internal inquiry report.

Conference spending. In April 2012, we evaluated the Department’s quarterly conference
reporting process, in which it submitted to OIG costs, its report validation process, and an
explanation of ongoing improvements to conference reporting guidance. Our objective was to
determine whether the Department had established controls and provided guidance to bureaus
for reporting quarterly conference data in the first quarter of FY 2012.

Our review found that the Department established initial operational processes and reporting
guidance. However, these processes are still in development and need to become clearly
established before the information in its periodic reports is fully reliable. We noted that:
       	 The bureaus over- and under-reported costs by $37,000 and $70,000, respectively, and
          reported $280,000 in unsupported costs
       	 The Department accepted bureaus’ conference spending data with only a limited
          validation of the reported data and planning procedures, which resulted in incorrect
          reporting for select conferences
The Department has also not been timely in submitting its quarterly conference spending
reports to OIG as required. However, it recently provided the three previous quarter reports
(through the first quarter of FY 2013) that were overdue.

The Department needs to address these concerns to ensure the reliability of conference data in
future submissions. In addition, we are reviewing FYs 2011–12 conference costs associated with
the Manufacturing Extension Partnership program, based on a Congressional request.

Addressing Issues of Ethics and Compliance Concerning Departmental Employees

Loosened internal controls and relaxed oversight can increase the misuse of federal funds and
lessen public confidence in the government. The following investigative case examples
underscore the need for stronger controls and more vigilant oversight to prevent fraud, waste,
and abuse within the Department and among its grant recipients and contractors:

       	 Former executive directors of a commission that received a NOAA grant misused
          $575,000 in grant funds; subsequently, they were indicted—and plead guilty—to charges
          of theft, bribery, and wire fraud


                                                            
12
  Office of Management and Budget, December 21, 2004. Management’s Responsibility for Internal Control, OMB
Circular A-123. Washington, DC: OMB.


                                                               15

 


    	 A NIST grantee diverted more than $100,000 from a $2 million NIST grant to a related
       company for non–grant-related expenses

    	 Several recipients of Departmental funds committed price fixing, used defective 

       merchandise, conducted money laundering, and made false statements 


Over the past several quarters, Department-related complaints made to the OIG hotline have
generally increased (see figure 4 below), driven largely by growth in complaints related to
NOAA and other smaller bureaus. While some complaints may have been caused by
misunderstanding or miscommunication, OIG reviews all complaints with due diligence.

               Figure 4. OIG Hotline Department-Related Complaint Activity
                      (First Quarter FY 2012–Second Quarter FY 2013)

       20 0

       18 0

                                                      174
       16 0

                                                               136        144
                                      136
       14 0

                           127                                                     To ta l
       12 0
                                                                                   NOAA
       10 0
                89                                                                 Censu s
        80                                                                         USPT O
        60                                                                         All others
        40
        20
         0

               Q1 (FY12) Q2 (F Y12) Q3 (F Y12) Q4 (F Y12) Q1 (FY13) Q2 (F Y 13)


     Source: OIG data, April 2013

OIG provides complaints related to mismanagement and minor misconduct to the responsible
bureaus for proper handling. However, many cases referred to bureaus for inquiry have not
been handled in a timely manner (see figure 5 below). As of April 10, 2013, OIG had 98 cases
pending an initial response from bureaus, of which 70 (71 percent) were older than 60 days.
Departmental policy requires that bureaus provide OIG with a written response within 60 days
of receiving a complaint referral.

 




                                                    16

 


                                                    Figure 5. OIG Hotline Complaint Referrals Older than 60 Days 

                                                                    Without an Initial Response 


                                              60
                                                                                              100%

                                                                                                                                      100%
                                                                                                                          89%                  90%
                                              50                                                                    87%




                                                                                                                                                       %  >6 0  days  w/ out  init ial  response
                                                                                                                                               80%
       Number  of  com plaint   refe rr las




                                                                                                                                               70%
                                              40
                                                                                                    60%                                        60%
                                                                                           57%
                                              30                                                                                               50%
                                                                                                          54
                                                                                                               47                              40 %
                                              20
                                                                                                                                               30%
                                                                                   25%
                                                                                                                                               20%
                                              10                 17%
                                                                                                                                               10%

                                               0         0%                                                                                    0%
                                                    OS        NTIA     ITA   USPTO Census       NIST     NOAA         EDA       BIS     MBDA

                                                                     Total pending complaint referrals
                                                                     Of which, are older than 60 days w/out a response
                                                                     % of pending referrals older than 60 days w/out a response

    Source: OIG data, April 2013

To provide effective oversight, the Department must address complaints referred by OIG
promptly and work to provide effective internal controls to help prevent issues before they
occur. We will continue working with the Department to enhance handling of these complaints.

Strengthening IT Security and Investments

In FY 2012, the Department planned to invest $2.4 billion in IT. This is about 25 percent of its
annual budget, one of the highest percentages devoted to IT among all civilian agencies. The
Department and its operating units rely on IT to support major mission activities, such as
producing the decennial census; releasing vital economic statistics (e.g., the gross domestic
product and consumer spending); granting patents and trademarks; issuing severe weather
alerts; and operating weather satellites. However, we have identified major concerns in the
Department’s IT security posture and fragmented IT governance.

While the Department’s Office of the Chief Information Officer (OCIO) has taken steps to
strengthen IT governance, we continue to find significant security vulnerabilities in bureau
systems that could lead, and already have led, to service disruptions and loss of sensitive
information. Four priorities for management attention are:




                                                                                              17

 


    	 Continuing to improve the Department’s IT security posture by addressing persistent
       security weaknesses
    	 Developing resilient incident response and recovery capabilities with increased 

       monitoring of Internet traffic 

    	 Managing the Department’s IT portfolio with enhanced governance structure
    	 Strengthening oversight of IT investments

Continuing to improve the Department’s IT security posture by addressing persistent
security weaknesses. In recent years, we have repeatedly identified significant weaknesses in
basic security measures protecting IT systems and information, such as high-risk vulnerabilities,
deficient patch management, inadequate secure configurations, and ineffective vulnerability
scanning. In January 2013, the Department’s OCIO started deploying an enterprise-wide
solution—the Enterprise Cybersecurity Monitoring and Operations (ECMO). This solution will
provide an automated mechanism to address these persistent security weaknesses on
information system components, such as workstations and servers. ECMO is funded through
yearly working capital fund contributions from all Commerce operating units. When completed,
it should provide ongoing awareness of information security vulnerabilities and threats to
support risk management decisions for the entire Department, as required by the Office of
Management and Budget.

Developing resilient incident response and recovery capabilities with increased
monitoring of internet traffic. Later this year, we will issue a report based on our ongoing
review of the EDA incident that began in December 2011. Our report will highlight the
challenges that the Department faces when responding to a cyber event. To address these
challenges, the Department OCIO recently completed an internal review of its Computer
Incident Response Team (DOC CIRT) capability. This review provides recommendations to
improve incident identification, analysis, response, and reporting. In addition, OIG has initiated
an audit of Department-wide incident handling capabilities.

The Department has made a concerted effort to implement OMB’s Trusted Internet
Connection (TIC) initiative, which should better monitor cyber threats from the Internet. All
operating units, except the Census Bureau, have definite timelines for TIC implementation. Due
to the concern over TIC’s inspection process, which could allow third parties to access
sensitive information that must be protected against disclosure by Title 13 of the United States
Code. The Census Bureau has no definite timeline for TIC implementation. In our TMC report,
we asked the Department to assign a high priority to helping the Bureau resolve its concern
about potential violation of Title 13 requirements. So far, no significant progress has been made.

Also, the Department OCIO considering options for implementing an Enterprise Security
Operations Center, which will support centralized monitoring of the Department’s networks in
near real-time, 24 hours a day, 7 days a week.

Managing the Department’s IT portfolio with enhanced governance structure. We
previously attributed the Department’s long-standing information security weaknesses to its
fragmented CIO governance, which resulted in stovepipes in IT investments and difficulties in


                                                18

 


fixing persistent security weaknesses. In June 2012, the Acting Secretary issued the
“Department IT Portfolio Management Strategy,” which expanded the role of the Department’s
CIO. Previously limited to policymaking and infrastructure maintenance, the Commerce CIO
now implements Department-wide IT shared commodity services, approves bureaus’ IT
investments, and provides at least 25 percent of performance appraisals of individuals
responsible for IT commodity services. Under the new strategy, there will be only one CIO per
bureau for better accountability.

This new strategy is an important step. However, it is too early to judge its effectiveness for
two reasons. First, historically, operating units have functioned independently on IT matters
with little Departmental direction. Second, the new strategy focused on increasing the
Department CIO’s influence on IT shared commodity services such as networks, data centers,
and e-mails, which account for only about 25 percent of the Department’s total IT investments.
Senior management should consider further enhancing the IT governance structure to help
ensure the Department’s success with major IT investments.

Strengthening oversight of IT investments. The Department’s IT review board, led by the
CIO and Chief Financial Officer (CFO), reviews major IT investments for status updates and
requests for additional spending authority and conducts TechStat reviews, which focus on
putting troubled investments back on track. The Department’s CIO has taken steps to improve
the IT investment review process, such as having operating units submit project information to
the CIO’s subject matter experts for analysis before the review meeting. In our November
2012 Top Management Challenges, we noted that three of six troubled IT investments had
remained at high risk for more than 12 months, and about 25 percent of the Department’s
major IT investments were 30 percent or more behind schedule. The situation has improved
since then: as of February 2013, two investments are at high risk. However, the CIO and CFO,
in conjunction with operating unit heads, must continue to ensure that program management is
more aggressively addressing investments with a history of high risk.

Improving Contracts Oversight

In FY 2012, the Department obligated approximately $2.4 billion on contracts for goods and
services, including satellite acquisitions, intellectual property protection, broadband technology
opportunities, management of coastal and ocean resources, IT, and construction and facilities
management. Table 4 (below) illustrates the amounts that the Department’s operating units
have obligated through contracts in recent years.




                                                19

 


              Table 4. Amounts Obligated by Departmental Operating Units
                               FY 2010                          FY 2011                        FY 2012
     Commerce
                      Contract                        Contract                        Contract
     Acquisition                     Amountb                           Amountb                          Amountb
                      Actionsa                        Actions                          actions
     Office
     NOAA                  16,087         $1,624           14,159           $1,160        13,939           $1,204
     Census                 3,187          1,312            1,849              522         1,957              249
     USPTO                  1,619            431            2,134              388         2,540              588
     NIST                   4,992            505            5,224              253         5,792              244
     Office of the
                              870              53            1,161               44         1,023             64
     Secretary
         TOTAL             26,755         $3,925           24,527           $2,367        25,251           $2,349
    Source: Department of Commerce Office of Acquisition Management

    a
      Include contracts, delivery orders, task orders, and contract modifications; b in $ millions. 


To maximize the effective use of these funds, the Department needs to strengthen its
acquisition and contract management practices. While it has made some progress—such as
reorganizing the Office of Acquisition Management to more directly address major acquisition
initiatives and implementing an Acquisition Center of Excellence—our audit work continues to
find weaknesses in how the Department plans, administers, and oversees its contracts and
acquisition programs. We have identified three tasks for management attention:
       Oversee high-risk contracts
       Maintain a sufficient acquisition workforce
       Implement an effective suspension and debarment program

Oversee high-risk contracts. In FY 2011, the Department reported progress in reducing dollar
amounts of high-risk contract awards. Despite this progress, overseeing existing high-risk
contracts remains a challenge to management. We continue to find weaknesses in the use of
cost-plus-award-fee (CPAF) and cost-plus-award-term (CPAT) contracts, which put the
Department’s contract dollars at risk. CPAF and CPAT contracts can encourage excellence by
providing financial incentives based on performance, but they require effective contract
provisions and monitoring to ensure contract dollars are spent wisely and award fees and terms
are justified.
In May 2012, we reported that NOAA did not use measurable evaluation criteria or payment
structures to motivate exceptional performance. Ultimately, NOAA consistently gave
contractors high ratings and substantial award fees and contract extensions, despite lacking
adequate support for their actual performance, as measured by evaluation criteria and required
by the Office of Management and Budget. Based on our audit, we found that more than $40
million was paid in award fees or approved for contract extensions without proper justification.
While NOAA has recently stated it has updated its policies and taken steps to improve
oversight of CPAF and CPAT contracts, effective implementation of its measures will be critical
to ensuring it does not pay improper award fees and extend contract terms.
Poor data systems could also undermine the Department’s efforts in managing its high-risk
contracts. Our audits have found that Departmental acquisition information reported in the


                                                          20

 


Federal Procurement Data System–Next Generation (FPDS–NG) is incomplete and inaccurate.
For example, in May 2012, we reported that the complete picture of NOAA’s use of CPAF and
CPAT contracts was unclear. Data reported in FPDS–NG and NOAA records on the use of
CPAF and CPAT contracts were also inaccurate and incomplete.13 To continue our focus in
areas of high-risk contract practices within the Department, we initiated an audit of the
Department’s management of time and material and labor hours contracts and will be reporting
on this issue later this year. These contracts are considered high-risk award actions because
they offer little or no incentive to contractors to operate efficiently and minimize costs to the
government.
Maintain a sufficient acquisition workforce. In a March 2009 memorandum, the President
acknowledged that the federal government needs to ensure that it has the workforce needed
to carry out robust and thorough oversight of contracts to help program management achieve
goals, avoid significant overcharges, and curb wasteful spending. However, the capacity and the
capability of the Department’s acquisition workforce to oversee and manage contracts face
major challenges due to high turnover and employee retirement, coupled with a significantly
reduced budget, gaps in key competency areas, and expanded workload. Like many federal
agencies, the Department is faced with the major challenge of replacing existing talent because
of a large number of retirements expected over the next several years. Of the approximately
200 contracting officers and specialists that the Department employs, more than half can retire
within 10 years. In addition, 14 percent of them are eligible for immediate retirement. Replacing
these employees represents a significant challenge, as many possess unique skills and
institutional knowledge that will be difficult to replace.
Implement an effective suspension and debarment program. We previously reported on
the challenges facing the Department in ensuring that it contracts with and provides funding
assistance only to responsible parties.14 Since finalizing its first suspension or debarment action
in over 15 years, in April 2011, the Department has made progress toward establishing an
efficient and durable suspension and debarment program. OIG has referred 10 matters,
including five since September 2011, to the Department’s suspending and debarring official
(SDO). Based on these referrals, as of March 1, 2013, the SDO has taken 48 total actions and
declined one referral.
The SDO continues efforts toward establishing a strong program, including:
       	 Regular attendance at monthly meetings of the Interagency Suspension and Debarment
          Committee
       	 Designation of a Suspension and Debarment Coordinator, who serves as a focal point
          for the program
       	 Preliminary planning for routine intradepartmental training on suspension and 

          debarment 


                                                            
13
   NOAA is the largest of all of the Department’s procurement offices, obligating nearly half of the FY 2011
funding.

14
   DOC OIG, October 2011. Top Management Challenges Facing the Department of Commerce, OIG-12-003. 

Washington, DC: DOC OIG.



                                                               21

 


       	 Establishment of regular meetings with the Department’s Office of General Counsel and
          OIG’s Office of Counsel
However, certain issues present ongoing challenges. Although the SDO’s office has begun
drafting policy documents to institutionalize processes and procedures regarding the referral,
review, and issuance of suspension and debarment matters, the adoption process needs to be
finalized. Also, even though the SDO’s processing efficiency has increased over the past year,
there is room for improvement regarding the prompt review of referrals. In addition, the
program lacks a clear delineation of roles and responsibilities in such important areas as revising
and adapting draft documents prepared by OIG for possible use in suspension and debarment
actions and appropriately following up on actions once taken.
Overseeing Use of Federal Funds Awarded to Grantees

The Department has more than 70 programs authorized to award grants. Between FYs 2009
and 2011, these programs issued almost $10 billion in American Recovery and Reinvestment
Act of 2009 (Recovery Act) and non-Recovery Act awards. Ensuring timely resolution of grant
audit findings and corrective actions is an essential aspect of grant oversight. In December 2012,
we reported to the Department that there were 12 unresolved audits, including 1 that was past
due.

With approximately $3.8 billion in grant awards, the Recovery Act-funded Broadband
Technology Opportunities Program (BTOP) represents the most significant investment of
federal funds in the Department. As of December 31, 2012, about 33 percent of BTOP funds
remain to be disbursed. As these projects near their required 3-year completion dates
(between November 2012 and September 30, 2013), the potential for fraud, waste, and abuse
associated with such large-dollar-amount awards will increase as recipient spending increases.
Management needs to remain committed to monitoring BTOP recipient compliance with grant
award terms and achievement of intended benefits.

Strengthening Spectrum Management and Public Safety  

On February 22, 2012, the President signed the Middle Class Tax Relief and Job Creation Act of
2012, which assigned the D-Block spectrum and provided $7 billion to NTIA to establish an
interoperable nationwide Public Safety Broadband Network (PSBN). As required by the
legislation, NTIA has established an independent authority called First Responder Network
Authority (FirstNet) to be the holder of the existing public safety spectrum and be responsible
for the establishment and deployment of the PSBN. It is important for NTIA to take into
consideration the lessons learned from earlier public safety network efforts when establishing
FirstNet, such as establishing local/state governance structures in compressed timeframes.

Radio frequency spectrum provides an array of wireless communications services critical to the
US economy and supports a variety of government functions.15 In June 2010, the President
requested that 500 MHz of spectrum be freed up for commercial sale. The National
Telecommunications and Information Administration (NTIA) announced in March 2012, that
the federal government intends to repurpose 95 MHz of prime spectrum for commercial use, if
                                                            
15
     U.S. Government Accountability Office, April 2011. Spectrum Management, Washington, DC: GAO, 1


                                                               22

 


certain challenges are met. However, the $18 billion price tag to relocate existing federal users
could make this cost prohibitive. A July 2012 report by the President’s Council of Advisors on
Science and Technology recommended that up to 1000 MHz of federal spectrum be made
available for a “shared use spectrum superhighway,”16 between federal agencies and commercial
providers. Recent technology advances make the shared-use architecture feasible in the near
future; however, many challenges such as lack of incentive for commercial providers to bid for
shared spectrum, revenue generation, and rights of use issues must be addressed to make this
effort a possibility. A strong partnership between the federal government (i.e., NTIA and the
Federal Communications Commission) and commercial providers will be needed to make this
program a reality.

                                                               * **

This concludes my prepared statement, and I will be pleased to respond to any questions you
or other Subcommittee members may have.




                                                            
16
  President’s Council of Advisors on Science and Technology, July 2012. Realizing the Full Potential of Government-
Held Spectrum to Spur Economic Growth. Washington, DC: President’s Council of Advisors on Science and
Technology, 11.


                                                                23

